     ADVISORY REPORT

    COSTS CLAIMED BY THE
      COMMONWEALTH OF
  KENTUCKY, DEPARTMENT OF
       FISH AND WILDLIFE
  RESOURCES, UNDER FEDERAL
     AID GRANTS FROM THE
    U.S. FISH AND WILDLIFE
   SERVICE FROM JULY 1, 1996
     THROUGH JUNE 30, 1998




MARCH 2003     Report No. 2003-E-0020
                                                                          X-GR-FWS-0038-2003


                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240



                                                                                   March 4, 2003


                                ADVISORY REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the Commonwealth of Kentucky,
           Department of Fish and Wildlife Resources, Under Federal Aid Grants from the
           U.S. Fish and Wildlife Service from July 1, 1996 through June 30, 1998
           (No. 2003-E-0020)

                                         Introduction
       This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the Commonwealth of Kentucky, Department of Fish
and Wildlife Resources (Department), under Federal Aid grants from the U.S. Fish and Wildlife
Service (FWS) for the period July 1, 1996 through June 30, 1998.

Background and Scope

       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize FWS to
provide Federal assistance grants to states to enhance their sport fish and wildlife programs. The
Acts provide for FWS to reimburse the states up to 75 percent of all eligible costs incurred under
the grants. The Acts specify that state hunting and fishing license revenues cannot be used for
any purpose other than the administration of the state’s fish and game agencies. In addition,
FWS provides grants to the states under the Clean Vessel Act and the Endangered Species Act.

       In 2000, another audit agency prepared a draft audit report on its audit of the
Commonwealth of Kentucky Federal Aid Program grants that were active in fiscal years 1997
and 1998. The scope of its audit work, as stated in the announcement letter to the Department,
was to evaluate (1) the adequacy of the Department’s accounting system as it relates to the
accumulation and reporting of costs charged to grants; (2) the adequacy and eligibility of the
direct costs claimed by the Department under the Federal Aid grant agreements with FWS; (3)
the adequacy and reliability of the Department’s hunting and fishing license fees collection and
disbursement process; and (4) the adequacy of the Department’s purchasing system and related
internal controls. The audit was also to include an analysis of other issues considered to be
sensitive and/or significant to FWS. The audit work at the Department covered claims totaling
approximately $17 million on FWS grants that were open during the Department’s fiscal years
ending June 30, 1997 and 1998 (see the Appendix). The audit agency’s agreement with FWS
expired before a draft report was issued to the Commonwealth of Kentucky.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. FWS did not renew or extend its agreement
with the audit agency, which expired on September 30, 2001. At the time of expiration, final
audit reports on several uncompleted audits had not been issued and the audits were in various
stages of the audit and reporting processes. The audit agency indicated in a September 28, 2001
memorandum to the file that its supervisors had not reviewed the working papers for the
Kentucky audit to ensure that (1) sufficient, competent and relevant evidence was obtained,
(2) evidential matter contained in the working papers adequately supported the audit findings in
the report, and (3) sound auditing techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the procedures set forth in the Agreement and our conclusions presented in the report are limited
to findings substantiated by the working papers. We did not perform any additional audit work
of the grantee’s records and the limited work performed under these procedures does not
constitute an audit by the OIG in accordance with Generally Accepted Government Auditing
Standards.

                                    Results of Review
       The working papers disclosed the following:

       •   Costs of $95,968 (Federal share) were questioned because they were incurred outside
           of the grant period ($9,000), claimed in excess of the Federal share ($10,198), non-
           Federal Aid costs ($33,283), inadequately supported ($33,674), unauthorized
           ($3,292), and claimed for non-reimbursable expenses ($6,521).

       •   The Department did not comply with its procedures for managing personal property
           acquired with Federal Aid funds.

       •   The Commonwealth’s assent legislation allows for the transfer of license revenues to
           the general fund.




                                                2
A. Questioned Costs
       The working papers identified questioned costs of $95,968 (Federal share) as follows:

        1. Out-of-Period Costs. Costs of $9,000 charged to Grant W-45-28 (Federal share)
were questioned because they were incurred in February 1996, prior to the time period covered
by the grant agreement (July 1, 1996 to June 30, 1997.) Office of Management and Budget
(OMB) Circular A-87, Cost Principles for State, Local and Indian Tribal Governments,
Attachment A states, “Any cost allocable to a particular Federal award or cost objective… may
not be charged to other Federal awards.” The project had a specified time period for the
performance of work and there was no evidence that FWS had authorized any deviations.

Recommendation

       We recommend that FWS resolve the $9,000 (Federal share) in out-of-period costs.

Department and U.S. Fish and Wildlife Service Responses

        The Department stated that the costs were in fact out-of-period for the grant segment to
which they were posted. The Department further stated there were excess expenditures that were
reported on the Financial Status Report but were not drawn by the Department. Therefore, the
reported finding ($9,000) minus eligible expenditures reported ($8,878) leaves a net of $122 that
will be returned to FWS.

       The FWS agreed with the finding and the Department’s proposed actions to resolve the
questioned costs. FWS stated, “The Service policy is to allow audited overmatch to offset
questioned costs as long as they are specific to the grant period and performance.”

Office of Inspector General Comments

       The Department’s Financial Status Report shows that the Department did have $8,878 in
additional Federal-eligible outlays that would partially offset the questioned costs. However,
FWS needs to verify that the remaining questioned costs ($122) have been credited back to FWS.

        2. Excess Drawdowns. Federal Aid reimbursements of $10,198 were questioned in the
working papers because they were in excess of the Federal share indicated in the grant
agreements. The Code of Federal Regulations (50 CFR 80.12) states, “Federal participation is
limited to 75 percent of eligible costs incurred in the completion of approved work or the Federal
share specified in the project agreement, whichever is less.” The Department was reimbursed
100 percent of the costs of four university studies. As a result, the 25 percent in excess of the
allowable amount was questioned. The questioned costs are summarized as follows:




                                                3
            Grant    Questioned Costs       Sub-grantee
            E-2-10         $1,702           Purdue University
            E-2-11         1,996            Tennessee Technological University
            E-2-11         2,750            University of Kentucky
            E-2-11         3,750            East Kentucky University
            Total          $10,198

Recommendation

       We recommend that the FWS resolve the $10,198 in questioned costs.

Department and U.S. Fish and Wildlife Service Responses

       The Department stated that, prior to closing the grant segment, appropriate manual
adjustments were made to split the costs to ensure that the amount claimed did not exceed the
approved Federal share. The Department provided copies of its general ledgers and the Financial
Status Report that indicate that the adjustments had been made in the Department’s accounting
records.

      The FWS stated that it concurred with the documentation provided by the State that
showed that the State was reimbursed for only 75 percent of the cost of the studies.

Office of Inspector General Comments

       The documentation provided by the Department indicates that appropriate adjustments
were made before the Financial Status Report was submitted. Based on the responses, we
consider the recommendation resolved and implemented.

       3. Non-Federal Aid Grant Costs. Costs totaling $33,283 (Federal share) were
questioned in the working papers because they were not applicable to Federal Aid grants. The
Code of Federal Regulations (50 CFR 80.12) states, “Federal participation is limited to 75
percent of eligible costs incurred in the completion of approved work.” The questioned costs
include:

       •   $7,440 used to renovate a clubhouse bathroom for which the U.S. Department of
           Energy funds were available (Grant No. W-45-28).
       •   $18,623 for a Corps of Engineers project (Grant No. F-49-12).
       •   $7,220 for maps for the Peabody Wildlife Management Area, which did not
           participate in Federal Aid funding (Grant No. FW-6-1).

Recommendation

       We recommend that the FWS resolve the $33,283 in questioned costs.




                                              4
Department and U.S. Fish and Wildlife Service Responses

     a. The Department stated that the invoice for the clubhouse bathroom “was miscoded to
W45-28,” and that the Federal portion of the questioned costs would be refunded to FWS.

       The FWS stated that it concurs that the $7,440 related to Grant W-45-28 are unallowable.

       b. The Department stated that the questioned costs for this activity also resulted from a
miscoding, the questioned costs were refunded to FWS through an amendment to Grant F-49-14,
and the grant amendment as well as the Financial Status Report shows that the questioned costs
($18,623) were reduced from the Federal share of the project.

       The FWS stated that it concurs with the finding and that it accepts the adjustment made
by the State.

        c. The Department stated that the Project Statement for Grant FW-6-1 (copy provided)
indicated that the expected results or benefits of the project were to “…produce accurate maps of
the managed properties.” The Department concluded that since the wildlife management area
was managed by the Department, the cost of maps were eligible for the grant segment.

       The FWS stated that it “reviewed the activities approved for Grant FW-6-1 and concurs
with the State that this [production of maps] is an eligible activity for this grant.”

Office of Inspector General Comments

       The responses and the additional information provided by the Department were sufficient
to consider items (b) and (c) resolved and implemented and item (a) resolved but not
implemented.

        4. Inadequate Support Documentation. Federal Aid reimbursements of $33,674 for
fish food purchases were questioned in the working papers because the auditors could not
determine whether all of the purchases were for Federal Aid projects. Specifically, several
purchase requisitions, purchase orders, or invoices were initially marked “NFA” (for non-Federal
Aid) but were later charged to Grant F-50-19.In addition, the auditors visited several fish
hatcheries and found that fish food purchased for Federal Aid grants was not segregated from
that purchased for private farm ponds.The Code of Federal Regulations (50 CFR 80.15) states
“Allowable costs are limited to those which are necessary and reasonable for accomplishment of
approved project purposes.” In addition, the regulation further states that, “All costs must be
supported by source documents or other records necessary to substantiate the application of
funds.”

Recommendation

       We recommend that the FWS resolve the $33,674 in questioned costs.




                                                5
Department and U.S. Fish and Wildlife Service Responses

        The Department stated that the Frankfort Fish Hatchery is the only hatchery that also
stocks private ponds and that fish food costs for the Federal and private programs are calculated
and prorated by the Federal Aid Coordinator. The Department further stated that it must
requisition necessary items, such as food, in advance of when it is to be used. The Department
added that the fish food would eventually go to the different hatcheries and be coded to the
different cost centers according to where it was used, and therefore, the code on the requisition
was irrelevant.

       The FWS stated that it accepted the method of cost allocation described by the State as an
acceptable accounting practice.

Office of Inspector General Comments

        The Department’s response did not provide a sufficient explanation or any documentation
to support the allocation method used by the Federal Aid Coordinator. Therefore, we consider
this recommendation unresolved. FWS should verify that the allocation method used was proper.

        5. Unauthorized Grant Costs. Costs totaling $3,292 (Federal share) for three payments
to the Kentucky River Authority for water usage fees were questioned because they were
charged to Grant F-50-19 prior to the effective date of the grant modification authorizing such
payments. In January 1997, the Department requested a determination from FWS as to the
amount of such payments that could be requested for Federal Aid participation. FWS Region 4
responded that, based on a review of the grant documents, there was no agreement to allow for
reimbursement for water usage fees. However, in March 1997, FWS issued Amendment No. 15
which incorporated usage fees into the grant and made them reimbursable effective April 1,
1997. As a result, three payments made for the periods ending June 30, September 30 and
December 31, 1996 were not authorized under the grant.

Recommendation

       We recommend that the FWS resolve the $3,292 in questioned costs.

Department and U.S. Fish and Wildlife Service Responses

       The Department stated that Amendment 1 to F-50-23 was submitted to offset $65,639 of
which $3,292 was for payments to the Kentucky Water Authority. The Department provided a
copy of the amendment to the grant as well as a copy of the general ledger for the grant to
demonstrate that sufficient state funds had been expended to offset the questioned costs.

        The FWS stated that it concurred with the finding and agreed with the method used by
the State to reimburse the costs.




                                                6
Office of Inspector General Comments

       The responses and the documentation provided by the Department are sufficient to
consider the recommendation resolved and implemented.

        6. Repair Costs. Costs totaling $6,521 (Federal share) charged to Grant W-45-29 for
repairing a dump truck were questioned because they were not allocable to the grant. The dump
truck was damaged in a traffic accident, and the working papers indicated that it was Department
policy to carry only liability insurance on commercial vehicles. The working papers showed no
evidence that such costs were allowable under the grant.
Recommendation

      We recommend that the FWS resolve the $6,521 in questioned costs.
Department and U.S. Fish and Wildlife Service Responses

       The Department stated that the vehicle was being used for Grant W-45 work when the
accident occurred. However, while trying to research the 1991 purchase, it was unable to obtain
a copy of the purchase document to verify that the vehicle was purchased with Federal Aid
funds. The Department further stated it had incurred $1,452,193 of excess Federally eligible
expenditures that were not reimbursed. Therefore, there were more than enough funds to offset
the amount that was reimbursed by FWS for the repair ($6,521).

        The FWS stated that it concurred that the costs were unallowable. It further stated that the
Service policy is to allow overmatch as an offset for unallowable costs as long as they are within
the grant period and are for approved activities.

Office of Inspector General Comments

        The Department provided sufficient documentation (Financial Status Report) to show that
there were sufficient funds to offset the questioned costs. Therefore, the responses were
sufficient to consider the recommendation resolved and implemented.

B. Asset Management
The working papers concluded that the Department did not comply with its own written
procedures in documenting receipt, transfer and disposal of property. Those procedures require
completing form FC-5 to document all equipment transactions including receipt of new items,
transferring items to other employees, declaring items as surplus and reporting lost or stolen
items.

Recommendation

       We recommend that the FWS ensure that the Department complies with its written
procedures for documenting receipt, transfer and disposal of property.




                                                 7
Department and U.S. Fish and Wildlife Service Responses

        The Department stated that it had taken several steps to enforce the procedures that are
already in place. All division directors and assistant directors have been advised on the use of
proper inventory procedures and the use of form FC-5 (inventory tracking form) has been
stressed to all Department employees. The Department added that it initiated a new accounting
program called MARS (Management Administrative and Reporting System) in July 1999. This
system generates several fixed asset forms electronically and some are automatically created
based on the coding of specific payments.

       The FWS stated that it considers the State’s corrective actions adequate “although a
review has not been done by the Service at this time.”

Office of Inspector General Comments

       The responses were sufficient to consider the recommendation resolved but not
implemented. FWS should confirm that the practices identified in the Department’s response
have been implemented.

C. Assent Legislation
        The Code of Federal Regulations (50 CFR 80.3) states “A State may participate in the
benefits of the [Federal Aid] Act(s) only after it has passed legislation which assents to the
provisions of the Acts and has passed laws for the conservation of fish and wildlife including a
prohibition against the diversion of license fees paid by hunters and sport fishermen to purposes
other than administration of the fish and wildlife agency.”

The working papers indicated that Kentucky statute KRS 48.315 allows the General Assembly to
transfer to the general fund all or part of agency funds, special funds or other funds established
under provisions of several statutes, including KRS 150.150 and 235.330 which pertain to the
Kentucky game and fish fund. The auditors notified FWS Region 4 on February 11, 2000 of this
situation, but the working papers did not indicate whether FWS has taken any action.

Recommendation

       We recommend that FWS resolve the issue regarding Kentucky’s assent legislation.

Department and U.S. Fish and Wildlife Service Responses

       The Department stated that it has met with members of both the Executive and
Legislative Branches to discuss the potential ramifications posed by Kentucky statute KRS
48.315. However, the Department indicated that it could not find support for the necessary
amendment required to delete the provision. The Department stated, “To date, the Department’s
funds have never been taken and kept in the General Fund. Because of the potential
ramifications on the Department’s federal funds that would be caused by such a seizure, the
Department is confident that the statute will not be exercised.”


                                                8
The FWS stated that it concurred with the finding. However, it indicated that the State does have
a law prohibiting the diversion of license funds.

Office of Inspector General Comments

       We do not believe that the responses are sufficient to resolve this matter because
Kentucky has a statute which allows the transfer of license revenues to the General Fund.
In accordance with the Departmental Manual (360 DM 5.3), please provide us with your written
response by June 6, 2003, regarding the open issues remaining in this report.

        This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by, anyone who is not cognizant
of the procedures that were applied and agreed to the sufficiency of those procedures.

       If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.

cc: Regional Director, Southeast Region
 U.S. Fish and Wildlife Service




                                                9
                                                                  APPENDIX


KENTUCKY DEPARTMENT OF FISH AND WILDLIFE RESOURCES
      FINANCIAL SUMMARY OF REVIEW COVERAGE
          JULY 1, 1996 THROUGH JUNE 30, 1998

    Grant                              Claimed     Questioned
   Number Grant Amount Federal Share Federal Share   Costs      Notes
  E-2-9       $170,435     $127,826        $118,781
  E-2-10        75,611       56,708          56,708    $1,702    1
  E-2-11       146,164      109,623         109,623     8,496    1
  E-2-12       178,248      118,234         118,234
  F-1-44       300,000      225,000         225,000
  F-1-45       310,000      232,500         232,500
  F-1-46       300,000      225,000         175,924
  F-29-30        5,333        4,000           4,000
  F-29-31        5,333        4,000           4,000
  F-40-19      336,200      252,150         215,982
  F-40-20      348,139      261,104         231,450
  F-40-21      380,755      285,566         252,142
  F-49-11      694,000      408,000         289,174
  F-49-12      550,882      413,162         394,832    18,623    2
  F-50-19    2,200,000    1,650,000        1,509,873   36,966    3
  F-50-20    2,694,380    2,020,785        1,944,548
  F-50-21    3,000,000    2,250,000        2,214,880
  F-61-7        12,000        9,000           9,000
  F-61-8        12,000        9,000           9,000
  F-65-4       549,186      308,390         264,512
  F-65-5       389,000      188,250         188,250
  F-65-6       279,853      151,671         151,446
  F-68-3        20,000       15,000          15,000
  F-68-4        20,000       15,000          15,000
  F-70-1        10,000        7,500           7,500
  F-70-2        10,000        7,500           7,500
  F-72-1        29,000       21,750          18,863



                                      10
                                                                                      APPENDIX


        Grant                              Claimed     Questioned
       Number Grant Amount Federal Share Federal Share   Costs                   Notes
      FW-3-20         170,000        127,500          82,009
      FW-3-21         190,000        142,500         132,541
      FW-6-1          289,305        216,978         170,550          7,220           2
      P-1-3            65,000         29,000          19,024
      V-2-1            92,202         67,300          52,601
      V-3-1            24,000         17,000           9,000
      V-4-1              8,000        36,000          19,439
      W-45-28        3,781,749     2,836,311        2,812,653       16,440            4
      W-45-29        4,404,123     3,303,092        2,318,867         6,521           5
      W-6-5          1,286,797       965,097         804,694
      W-7-1          1,030,000       772,500         772,500
      W-7-2          1,030,000       772,500         609,667

      Totals      $25,437,695    $18,662,497    $16,587,267        $ 95,968



Explanatory Notes:

   1. These questioned costs pertain to costs drawn down in excess of the Federal share
      (Questioned Costs, 2).

   2. These questioned costs pertain to Non-Federal Aid grant costs (Questioned Costs, 3).

   3. These questioned costs include $33,674 of inadequately supported costs and $3,292 of
      unauthorized costs (Questioned Costs, 4 and 5, respectively).

   4. These questioned costs relate to out-of-period costs and Non-Federal Aid grant costs
      (Questioned Costs, 1 and 3, respectively).

   5. These questioned costs pertain to vehicle repair costs (Questioned Costs, 6).




                                               11
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
